      Efficiency of the Los Angeles, CA
         International Service Center

                       Audit Report




                                  September 21, 2012

Report Number NO-AR-12-009
                                                                   September 21, 2012

                                                   Efficiency of the Los Angeles, CA
                                                         International Service Center

                                                        Report Number NO-AR-12-009



BACKGROUND:
The U.S. Postal Service continues to         establish realistic productivity goals or
face significant financial challenges. The   targets, or always properly supervise
Postal Service concluded the first           employees. In addition, management
2 quarters of fiscal year (FY) 2012 with     did not maximize the use of automated
net losses of more than $6.4 billion. In     and mechanized equipment.
addition, the operating revenue for the      Consequently, the Los Angeles ISC
1st 2 quarters declined by $207 million      used more workhours than necessary to
from the same period last year. The          process its mail volume.
Postal Service is aggressively pursuing
new revenue streams and reducing             We estimate that management at the
costs in areas within its control.           Los Angeles ISC could further improve
Maximizing mail processing efficiency is     productivity by reducing 63,170
critical in that regard.                     workhours. If they avoid these
                                             workhours, the Postal Service could
The Los Angeles International Service        save almost $2.2 million annually.
Center (ISC) is located in the Pacific
Area and is responsible for receiving,       WHAT THE OIG RECOMMENDED:
processing, and dispatching                  We recommended the plant manager,
international import and export mail. It     Los Angeles ISC, reduce 63,170
processed more than 51 million               workhours with an associated economic
mailpieces in FY 2011, an increase of        impact of almost $2.2 million annually,
11.5 percent from FY 2010.                   or increase mail volume by 3.1 million
                                             pieces, or a combination of both. We
Our objective was to evaluate the            also recommended the plant manager
efficiency of the work performed by the      periodically evaluate operating efficiency
Los Angeles ISC.                             and staffing at the Los Angeles ISC to
                                             determine whether further workhour
WHAT THE OIG FOUND:                          adjustments are necessary based on
Although management at the                   workload. Finally, we recommended that
Los Angeles ISC has made progress in         management maximize the use of
improving productivity in FY 2012,           automated and mechanized equipment,
further opportunities exist for              establish realistic productivity goals or
improvement.                                 targets, and improve supervision of
                                             employees.
The Los Angeles ISC management did
not fully evaluate operational efficiency
and staffing based on workload,              Link to review the entire report
September 21, 2012

MEMORANDUM FOR:            JOHN W. HOLDEN
                           PLANT MANAGER, LOS ANGELES, CA
                           INTERNATIONAL SERVICE CENTER




FROM:                      Robert J. Batta
                           Deputy Assistant Inspector General
                            for Mission Operations

SUBJECT:                   Audit Report – Efficiency of the Los Angeles, CA
                           International Service Center
                           (Report Number NO-AR-12-009)

This report presents the results of our audit of the Efficiency of the Los Angeles, CA
International Service Center (Project Number 12XG020NO000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact James L. Ballard, director,
Network Processing, or me at 703-248-2100.

Attachments

cc: Megan Brennan
    David E. Williams, Jr.
    Drew Aliperto
    Eduardo H. Ruiz, Jr.
    Brent Raney
    Corporate Audit and Response Management
Efficiency of the Los Angeles, CA                                                                                  NO-AR-12-009
 International Service Center



                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 2

Trends in Volume, Workhours, and Productivity ............................................................. 3

   Productivity by Day of the Week .................................................................................. 3

   Opportunity Workhours ................................................................................................ 4

   Additional Volume ........................................................................................................ 5

   Productivity Targets ..................................................................................................... 6

   Employee Complement ............................................................................................... 6

   Causes and Impacts on Operations............................................................................. 7

Recommendations .......................................................................................................... 7

Management’s Comments .............................................................................................. 8

Evaluation of Management’s Comments ......................................................................... 8

Appendix A: Additional Information ................................................................................. 9

   Background ................................................................................................................. 9

   Objective, Scope, and Methodology ............................................................................ 9

   Prior Audit Coverage ................................................................................................. 11

Appendix B: Sources of Workhour Reductions ............................................................. 12

   Reduction in Overtime ............................................................................................... 12

   Mechanized and Automated Letter and Flats Processing.......................................... 12

   Mechanized Parcel Distribution ................................................................................. 15

   Mechanized Sack Distribution ................................................................................... 19

   Manual Operations .................................................................................................... 21
Efficiency of the Los Angeles, CA                                                                    NO-AR-12-009
 International Service Center


Appendix C: Monetary Impacts ..................................................................................... 24

Appendix D: Management’s Comments ........................................................................ 25




                                              Restricted Information
Efficiency of the Los Angeles, CA                                                                    NO-AR-12-009
 International Service Center



Introduction

This report presents the results of our audit of the efficiency of the Los Angeles, CA
International Service Center (ISC) (Project Number 12XG020NO000). Our objective
was to evaluate the efficiency of the work performed by the Los Angeles ISC. This audit
addresses operational risk. See Appendix A for additional information about this audit.

We performed this audit based on a previous audit,1 in which we found the Los Angeles
ISC could improve operational efficiency. That report indicated the Los Angeles ISC
generally did not meet productivity targets, adjust workhours in relation to changes in
workload, fully employ mechanized equipment, or attain the level of efficiency of other
centers. Because of significant operational changes at the Los Angeles ISC,2 the
recommendations in that report were closed with the agreement that we would conduct
another audit.

The Postal Service continues to face significant financial challenges. The Postal Service
concluded the 1st 2 quarters of fiscal year (FY) 2012 with net losses of more than
$6.4 billion. In addition, the operating revenue for the 1st 2 quarters declined by
$207 million from the same period last year (SPLY). Current financial projections
indicate that the Postal Service will not be able to make a required $5.6 billion
prefunding payment for retiree health benefits that is due by September 30, 2012. The
Postal Service is aggressively pursuing new revenue streams and reducing costs in
areas within its control. Maximizing mail processing efficiency is critical in that regard.

The Los Angeles ISC is located in the Pacific Area and is responsible for receiving,
processing, and dispatching international import and export mail. The Los Angeles ISC
also processes military mail, Express Mail, and Registered Mail. There are five ISCs,
located in New York, Miami, Chicago, Los Angeles, and San Francisco. The
Los Angeles ISC processed more than 51 million mailpieces in FY 2011, an increase of
11.5 percent from FY 2010.




1
 Efficiency of the Los Angeles International Service Center (Report Number NO-AR-05-011, dated June 17, 2005).
2
 The type of mail processed at the Los Angeles ISC has changed since 2009. Processing of export letters and flats
was moved to the New York ISC. Mail volumes added to the Los Angeles ISC were military letters and flats, military
parcels, and import parcels.

                                                         1
Efficiency of the Los Angeles, CA                                                                   NO-AR-12-009
 International Service Center



                                 Illustration 1. The Los Angeles ISC




                Source: U.S. Postal Service Office of Inspector General (OIG);
                June 9, 2012; 5:22 p.m. Front of the Los Angeles ISC.



Conclusion

Although management at the Los Angeles ISC has made progress in improving
productivity in FY 2012, further opportunities exist for improvement. We estimate that
management could improve productivity by reducing 63,170 workhours,3 resulting in a
potential savings of almost $2.2 million annually.

This condition occurred because Los Angeles ISC management did not fully evaluate
operational efficiency and staffing based on workload, establish realistic productivity
goals or targets, or always properly supervise employees. In addition, Los Angeles ISC
management did not maximize the use of automated and mechanized equipment.
Consequently, the Los Angeles ISC used more workhours than necessary to process its
mail volume.




3
 This estimate is based on achieving 90 percent of the productivity achieved on Saturday. Based on our analysis and
discussions with management, this appeared to be a reasonable productivity goal.


                                                         2
Efficiency of the Los Angeles, CA                                                                                 NO-AR-12-009
 International Service Center



To increase productivity, Los Angeles ISC management should:

     Reduce workhours by 63,170 based on FY 2011 usage or
     Increase mail volume by 3.1 million mailpieces, or
     Combine workhour reductions and increase mail volume.

Trends in Volume, Workhours, and Productivity

The Los Angeles ISC experienced a significant decline in first-handling pieces (FHP)4
volume of more than 50 percent from FY 2009 to FY 2010 and, as a result, FHP
productivity decreased sharply by 55.7 percent. This volume decline occurred because
international letter and flat mail processing moved from the Los Angeles ISC to the New
York ISC.

From FY 2010 to FY 2011, FHP volume at the Los Angeles ISC increased by
11.5 percent due to the addition of military mail processing at the Los Angeles ISC.
During this same period, overtime workhours increased from 55,663 to 116,746, or
73.2 percent (see Table 1).

                                  Table 1. Trends at the Los Angeles ISC


                             Percent                                            Percent
                                                                                                                                 Percent
                             Change                            FHP              Change           Overtime        Percent
     FY         FHP                        Workhours                                                                             Change
                               FHP                          Productivity         FHP            Workhours        Overtime
                                                                                                                                 Overtime
                             Volume                                           Productivity




    2009    92,166,532              N/A         791,303              116.5               N/A          58,863         7.44%            N/A

    2010    45,786,475         (50.3%)          887,974               51.6          (55.7%)           55,663         6.27%        (15.7%)

 2011     51,053,705        11.5%     1,075,551           47.5                       (7.9%)          116,746        10.85%          73.2%
Sources: Electronic Data Warehouse (EDW) and OIG, as of June, 2012.
N/A: Not Applicable

Productivity by Day of the Week

We calculated FHP productivity for the Los Angeles ISC by day of the week and found
that employees were most productive on Saturday working 55 mailpieces per workhour.
Monday had the lowest productivity at 34 mailpieces per workhour (see Chart 1).




4
  A first handling piece is a letter, flat, or parcel that receives its initial distribution at a Postal Service facility. FHP
records mail volume in the operation where it receives its first distribution handling.


                                                                 3
Efficiency of the Los Angeles, CA                                         NO-AR-12-009
 International Service Center



                            Chart 1. FHP Productivity by Week Day




           Sources: EDW and OIG, as of June 2012.

Opportunity Workhours

If the Los Angeles ISC achieved just 90 percent of the demonstrated Saturday FHP
productivity level of 55 pieces per workhour, it could save 63,170 workhours per year
based on FY 2011 usage. This would require management at the Los Angeles ISC to
improve FHP productivity to 49 pieces per workhour Monday through Friday (see Table
2).




                                                    4
Efficiency of the Los Angeles, CA                                                       NO-AR-12-009
 International Service Center



                                Table 2. Opportunity Workhours

                                                                   Earned
                                                                 Workhours
                     FHP               FHP                           at 90        Opportunity    Projected
     Day                                           Workhours
                    Volume          Productivity                  Percent of      Workhours     Productivity
                                                                  Saturday
                                                                 Productivity
 Saturday          8,528,994              55           155,149        155,149               -          55
 Sunday            6,181,778              50           122,670        122,670               -          50
 Monday            3,383,633              34            99,318          68,390         30,928          49
 Tuesday           6,606,002              43           154,808        133,520          21,288          49
 Wednesday         8,617,242              47           182,400        174,171           8,229          49
 Thursday          8,972,495              49           182,229        181,352             877          49
 Friday            8,763,561              49           178,977        177,129           1,848          49
 TOTAL            51,053,705              47         1,075,551      1,012,381          63,170          50
Sources: EDW and OIG, as of June, 2012.

We identified several potential sources of workhour reductions (see Appendix B).

Additional Volume

The Los Angeles ISC could also improve productivity by increasing the FHP volume of
mail processed if workhours remained constant. We calculated the additional volume
needed to achieve 90 percent of the Saturday FHP productivity level and found that the
Los Angeles ISC would need to process 3,125,361 additional mailpieces per year (see
Table 3).

                                      Table 3. Additional Volume

                                                                   Earned
                                                                   volume
                    FHP                FHP                           at 90       Additional    Projected
     Day                                           Workhours
                   Volume           Productivity                  percent of      Volume      Productivity
                                                                  Saturday
                                                                 Productivity
 Saturday          8,528,994              55          155,149       8,528,994             -       55
 Sunday            6,181,778              50          122,670       6,181,778             -       50
 Monday            3,383,633              34           99,318       4,913,821     1,530,188       49
 Tuesday           6,606,002              43          154,808       7,659,223     1,053,221       49
 Wednesday         8,617,242              47          182,400       9,024,355       407,113       49
 Thursday          8,972,495              49          182,229       9,015,895        43,400       49
 Friday            8,763,561              49          178,977       8,855,000        91,439       49
 TOTAL            51,053,705              47        1,075,551      54,179,066     3,125,361       50
Sources: EDW and OIG, as of June, 2012.




                                                    5
Efficiency of the Los Angeles, CA                                                                  NO-AR-12-009
 International Service Center


Productivity Targets

We found that none of the five ISCs were achieving the Postal Service's mail processing
variance5 (MPV) productivity targets. The targets are not realistic for ISCs as none of
the five ISCs is achieving even half of the target levels. Management at the Los Angeles
ISC should develop realistic productivity goals or targets for ISC operations and mail
types. We will address this issue in a future capping report. See Table 4.

                             Table 4. Percent Achievement to Targets

                                                                      Percent
                                    ISC                             Achievement
                                                                     to Targets
                    Chicago                                                    29.31%
                    Los Angeles                                                27.88%
                    Miami                                                      28.34%
                    New York                                                   37.51%
                    San Francisco                                              49.55%
                    Source: Postal Service MPV, as of June, 2012.

Employee Complement

The Los Angeles ISC has reduced staffing from FY 2010 to FY 2011, but increasing
FHP productivity to 90 percent of the Saturday productivity level will require additional
reductions. There are 451 career mail processing employees at the Los Angeles ISC,
and we found that 168 or 37.3 percent of these employees are currently eligible to retire
(see Table 5).

                            Table 5. Employee Complement Summary

                                                            Retirement
      Employee           Number of Career                                              Percentage
                                                             Eligible
        Type               Employees                                                Eligible to Retire
                                                            Employees

    Management                                 20                             5                     25.0%
    Clerks                                   303                           138                      45.5%
    Mail Handlers                            128                            25                      19.5%
    TOTAL                                    451                           168                      37.3%
Source: Web Complement Information System, as of May, 2012.



5
 Variance programs are management models that provide complement, workhour, productivity, and workload
analyses. Variance models calculate actual vs. earned performance against standardized target productivity
expectations and trends performance from national results to the unit level.


                                                        6
Efficiency of the Los Angeles, CA                                            NO-AR-12-009
 International Service Center


While the Los Angeles ISC has reduced staffing from FY 2010 to FY 2011, additional
reductions are necessary. Of the 569 mail processing employees at the Los Angeles
ISC, 451 are career employees and 118 are non-career employees. We found that 168
career employees (37.3 percent) at the Los Angeles ISC are eligible to retire. With the
national attrition rate of 5 percent per year (23 career employees), the Los Angeles ISC
could achieve the recommended workhour savings of 63,170 within 2 years (see
Table 6).
                       Table 6. Potential Savings from Retirements

                                                          Projected
                                                          Workhour
                      FY 2013             Employees
                                                           Savings
                                                          per Year
                 Anticipated
                                                    23           39,348
                 Retirements
                Source: OIG, as of May 2012.

Causes and Impacts on Operations

Management at the Los Angeles ISC addressed operational efficiency by comparing
performance to SPLY. Our observations revealed that productivity was low at the Los
Angeles ISC because management did not: fully evaluate operational efficiency by
analyzing workhour trends and adjusting workhours to workload, maximize the use of
automated and mechanized equipment, establish realistic productivity goals or targets,
and properly supervise its employees. As a result, management at the Los Angeles ISC
used more workhours than necessary to process its mail volume.

Recommendations

We recommend the plant manager, Los Angeles International Service Center perform
the following by fiscal year 2014:

1. Achieve a cost avoidance of about $4.3 million over 2 years by:

      Reducing workhours by 63,170 or

      Increasing mail volume by 3.1 million pieces, or

      Combining workhour reductions and additional mail volume to result in an
       equivalent productivity improvement.

2. Periodically evaluate operating efficiency and staffing at the Los Angeles
   International Service Center to determine whether further workhour adjustments are
   necessary based on workload.




                                                7
Efficiency of the Los Angeles, CA                                             NO-AR-12-009
 International Service Center


3. Maximize the use of automated and mechanized equipment.

4. Establish realistic productivity goals or targets.

5. Improve supervision of employees to ensure all employees are fully engaged.

Management’s Comments

Management agreed with the recommendations in the report. Specifically, in response
to recommendation 1, management stated that, effective November 1, 2012, they will
increase mail volume by 15.6 million pieces per year and save 63,170 workhours by
2014. In response to recommendation 2, effective August 20, 2012, management began
periodically evaluating efficiencies and integrating the ISCs into their baseline staffing
model. In response to recommendation 3, effective August 24, 2012, management
began performing process studies to analyze underutilized mechanization. In response
to recommendation 4, effective August 20, 2012, management began establishing
productivity goals through a comprehensive series of Lean Six Sigma projects. In
response to recommendation 5, management will monitor operation to ensure that all
employees are gainfully employed. Additionally, management will create a supervisor
training curriculum and conduct training as necessary.

See Appendix D for management’s comments, in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
corrective actions should resolve the issues identified in the report.




                                              8
Efficiency of the Los Angeles, CA                                                                            NO-AR-12-009
 International Service Center



                                   Appendix A: Additional Information

Background

ISCs distribute and dispatch international mail received from a designated service area
to specific foreign countries or to gateway exchange offices. The Postal Service
established ISCs in 1996 to better compete in the growing international mail market.
Before 1996, exchange offices6 processed international mail.7 These exchange offices
were collocated at processing and distribution centers where domestic mail processing
took precedence over international mail. There are currently five ISCs, located in New
York, Miami, Chicago, Los Angeles, and San Francisco.

The Los Angeles ISC is the gateway office for international mail for the South Pacific
and South East Asia. The Los Angeles ISC is responsible for receiving, processing, and
dispatching international import and export volumes. The Los Angeles ISC is also
responsible for processing military mail. Military mail is mail addressed to or mailed from
a military unit located outside the continental U.S. or mail that goes between two military
units overseas. Military mail service is an extension of domestic mail service. Use of an
Army Post Office /Fleet Post Office ZIP Code constitutes a military address for overseas
military mail.

The Postal Service leases the Los Angeles ISC. The building has 371,453 square feet
(SF) of interior space, with an enclosed platform area of 11,386 SF, on a site with
dimensions of 353,375 SF.

Objective, Scope, and Methodology

Our objective was to assess the efficiency of operations at the Los Angeles ISC. To
assess the efficiency of the Los Angeles ISC, we observed mail processing operations,
analyzed mail volumes and workhours, evaluated machine utilization, and interviewed
Postal Service officials.




6
  An international exchange office or international mail service center is a Post Office, airport mail center, or facility
authorized to exchange international mail, both air and surface, with another country.
7
  International mail originates in one country and arrives in another. It is classified as Postal Union Mail (letters, cards,
                                                                    ®
and other articles), postal parcels, and Express Mail International service.


                                                              9
Efficiency of the Los Angeles, CA                                                                           NO-AR-12-009
 International Service Center


We relied on Postal Service operating systems, including the EDW,8 the Mail
Processing Variance System, eFLASH,9 the Web Complement Information System,10
the Web Mail Condition Reporting System (WebMCRS),11 and the Web End-of-Run
System12 to analyze mail volume, workhours, and employee complement. We checked
the accuracy of data by confirming our analysis and results with Postal Service
managers and found no material differences.

We conducted this performance audit from April through September 2012 in accordance
with generally accepted government auditing standards and included such tests of
internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management on August 28, 2012, and included their
comments where appropriate.

We assessed the reliability of computer-generated data by interviewing agency officials
knowledgeable about the data. We determined that the data were sufficiently reliable for
the purposes of this report.




8
 A collection of data from many sources, which is stored in a single place for reporting and analysis.
9
  The eFLASH application is a weekly operating reporting management system. It combines data from delivery, mail
processing, employee relations, labor relations, and finance.
10
   A web-based tool for managing and tracking complement that provides easy access to information about
employees, their work assignments, and on-rolls vs. authorized complement levels by operational unit.
11
   A repository for information related to facility conditions. A daily snapshot of conditions at facilities throughout the
nation is taken at the time of day mail volume is at its lowest. Information relating to conditions at that time, as well as
prior day's processing, is reported. This information is available to management at all levels for analysis, forecasting,
and planning.
12
  Provides the capability to reproduce, archive, or summarize any or all information captured during a mail
processing machine run and to present this information in report-form. Web End of Run reports can be used to
measure machine performance, to track machine location, and for planning or trend purposes.




                                                             10
     Efficiency of the Los Angeles, CA                                           NO-AR-12-009
      International Service Center


     Prior Audit Coverage

                                           Final
                                          Report       Monetary
  Report Title        Report Number         Date        Impact            Report Results
Efficiency of the     NO-AR-05-011       6/17/2005    $26,075,474    We found the Los
Los Angeles                                                          Angeles ISC generally
International                                                        did not meet
Service Center                                                       productivity targets,
                                                                     adjust workhours in
                                                                     relation to changes in
                                                                     workload, fully employ
                                                                     mechanized equipment,
                                                                     or attain the level of
                                                                     efficiency achieved by
                                                                     other centers.
                                                                     Management
                                                                     acknowledged our
                                                                     recommendations and
                                                                     agreed that a
                                                                     combination of
                                                                     workhour reductions, an
                                                                     increase in mail volume,
                                                                     and consolidation of
                                                                     volume could also
                                                                     achieve higher
                                                                     efficiency levels.
Mail Condition        NO-AR-07-010       9/24/2007       None       We found improvements
Reporting at the                                                    could be made in
Los Angeles                                                         procedures for reporting
International                                                       inbound parcels and
Service Center                                                      plan failures for each
                                                                    processing operation.
                                                                    Management
                                                                    acknowledged the audit
                                                                    results and implemented
                                                                    processes to remedy
                                                                    and/or correct the
                                                                    incompleteness and
                                                                    inaccuracy of
                                                                    WebMCRS data by
                                                                    providing the
                                                                    recommended training.




                                                 11
Efficiency of the Los Angeles, CA                                                                      NO-AR-12-009
 International Service Center


                         Appendix B: Sources of Workhour Reductions

Reduction in Overtime

We compared overtime usage at the five ISCs and found that the Los Angeles ISC was
tied for the highest overtime rate with the Chicago ISC at 10.9 percent for FY 2011. The
median overtime rate for the five ISCs was 6 percent (see Table 7).

                              Table 7. ISC Overtime Rates for FY 2011

                                                                                      Opportunity
                                                                                     Workhours by
                                               Overtime  Percent
          ISC              Workhours                                                 Achieving the
                                               Workhours Overtime
                                                                                    Median Overtime
                                                                                    Rate of 6 Percent
 Chicago                        922,002             100,747           10.9%                          45,427
 Los Angeles                  1,075,551             116,746           10.9%                          52,213
 Miami                          473,544              16,278            3.4%                               0
 New York                     2,201,473             132,860            6.0%                               0
 San Francisco                  642,344              22,981            3.6%                               0
Sources: EDW and OIG.

Management at the Los Angeles ISC uses the eFLASH report to compare their
workhour performance to the SPLY and is not actively adjusting workhours to workload.
Management has made progress in FY 2012 year-to-date through June 29 by reducing
overtime by 5.5 percent compared to SPLY. However, the overtime rate remains high at
10.43 percent. If Los Angeles ISC management reduced the overtime rate to the
median level of 6 percent, 52,213 workhours per year could be saved.

We also found that mail processing supervisors routinely call 2 hours of overtime
Wednesday through Saturday, because these are the higher volume days. Posting
non-traditional, full-time employee 4-day, 10-hour day schedules could help reduce
overtime.

Mechanized and Automated Letter and Flats Processing

We analyzed the capacity for each type of equipment at the Los Angeles ISC and found
that excess capacity exists on all equipment types. The Delivery Barcode Sorter Input
Output Subsystem (DIOSS)13 and the Upgraded Flat Sorting Machine 1000 (UFSM




13
   A multifunction letter mail processing system based on the Delivery Barcode Sorter with additional components for
optical character recognition and image lift to the input subsystem as well as supporting output subsystem capabilities
to spray barcodes on mail.


                                                          12
Efficiency of the Los Angeles, CA                                                                    NO-AR-12-009
 International Service Center


1000)14 were the most underused, with 74 percent excess capacity, running just a few
hours on Tour 1 (see Illustration 2). UFSM 1000 operation could be improved, as
employees took too long to set up the equipment and did not feed mail properly. See
Illustration 3 and Illustration 4.

                                    Illustration 2. DIOSS Operation




         Source OIG; June 10, 2012; 1:07 a.m. The DIOSS sorting military letter mail; this machine is only used a
         few hours per day on Tour 1.




14
  A flat-sorting machine that can sort non-barcoded mail and barcoded mail using a high-speed feeder and an optical
character reader.


                                                        13
Efficiency of the Los Angeles, CA                                                                      NO-AR-12-009
 International Service Center



                               Illustration 3. UFSM 1000 Operation




           Source: OIG; June 9, 2012; 11:47 p.m. A clerk spent an hour setting up the UFSM 1000 to
           process a relatively small amount of mail.



                         Illustration 4. UFSM 1000 Feeding Operation




          Source: OIG; June 10, 2012; 1:14 a.m. The clerk feeds a few pieces at a time from the flat
          tub rather than filling the console and allowing the feed arm to advance the mail. The
          arm is resting on an upside down tray.




                                                       14
Efficiency of the Los Angeles, CA                                                                 NO-AR-12-009
 International Service Center


Mechanized Parcel Distribution

Employees on the Automated Parcel and Bundle Sorter (APBS)15 machine were
allowed by supervisors to key every piece of mail rather than scanning mail with
barcodes. Increasing the amount of mail scanned on the APBS will reduce workhours
and increase productivity (see Illustration 5).

                                     Illustration 5. APBS Keying




        Source: OIG; June 5, 2012; 10:31 a.m. All six keying positions are staffed on APBS #2. Employees key
        every mailpiece, although the machine is equipped with barcode scanners.

Often, we found that the APBS was staffed with too many keyers. There are six keying
positions on the APBS. If the first four keyers fill the transport belt with parcels, the last
two are not productive, because they are waiting for an opening on the belt to induct
mail (see Illustration 6).




15
  An upgraded Small Parcel and Bundle Sorter with a new control system, barcode and optical character reader
technology, and improved induction stations.




                                                       15
Efficiency of the Los Angeles, CA                                                                          NO-AR-12-009
 International Service Center



                                         Illustration 6. APBS Staffing




            Source: OIG; June 5, 2012; 10:35 a.m. The belt is full before reaching keyers #5 and #6.
            Keyer #6 is watching the belt, waiting for parcels to move on so she can begin keying again.

We observed staffing and scheduling of employees on the parcel sorting machine
(PSM)16 was inconsistent with mail volume. Keyers and sweepers were often idle (see
Illustration 7 and Illustration 8).




16
     A large machine that sorts and discharges parcels from transport trays to separations.




                                                            16
Efficiency of the Los Angeles, CA                                                          NO-AR-12-009
 International Service Center



                                     Illustration 7. PSM Staffing




              Source: OIG; June 8, 2012; 11:45 a.m. The PSM staffed with four keyers and
               only enough mail to keep one employee busy. Other keyers were idle.

                            Illustration 8. Idle Employee at the PSM




                Source: OIG; June 5, 2012; 12:24 p.m. An employee below the PSM
                reading a book.




                                                      17
Efficiency of the Los Angeles, CA                                                                      NO-AR-12-009
 International Service Center


Mechanized Sack Distribution

The sack sorting machine (SSM)17 operation could be improved. Coordination between
the sack keying area and the sack run outs on the first floor was inadequate. Often,
sacks were available to be keyed, and either no keyers or too few keyers were
available, while employees at the sack run out belts were idle. We consistently
observed the employees on run out belts waiting for sacks. We observed as few as one
or two keyers with six employees at the run out belts. See Illustration 9 and Illustration
10.

                                          Illustration 9. SSM Keying




           Source: OIG; June 10, 2012; 6:57 p.m. The SSM is full of sacks, and there are only two keyers (not
           shown).




17
     A mechanized, operator-controlled machine that sorts sacks of mail.




                                                           18
Efficiency of the Los Angeles, CA                                                                   NO-AR-12-009
 International Service Center



                   Illustration 10. Idle Employees at SSM Run Out Belts




        Source: OIG; June 6, 2012; 10:04 p.m. Sacks end up on one of several run out belts on
        the first floor. Here, three employees stand idle at one of the belts, waiting for sacks.

We also found there were times when the keyers were idle, and the run out belts were
not staffed. See Illustration 11 and Illustration 12.

                                    Illustration 11. SSM Keyer Idle




            Source: OIG; June 10, 2012; 1:36 p.m. One of the three keyers on the SSM sits
            and types text messages because of lack of mail.




                                                        19
Efficiency of the Los Angeles, CA                                                   NO-AR-12-009
 International Service Center



                    Illustration 12. SSM Run Outs Not Properly Staffed




                Source: OIG; June 10, 2012; 7:00 p.m. Mail backing up and falling
                off the run out belts onto the floor.

Lastly, the employee rotation on the sack sorter was lacking as the keyers left the sack
sorter to staff the run out belts, and then the employees on the run out belts would leave
to staff the keying operation. This rotation should be the other way around, with the
keyers being relieved to maintain throughput on the SSM.

Manual Operations

Efficiency of the manual military pouching operation could be improved. The pouch
racks are arranged in large U-shaped configurations, and the clerks must walk a long
distance to place parcels in pouches. If management made more separations on the
primary sort, the clerks could be more productive by sorting parcels to fewer racks at a
time. Management should also consider staffing some mail handlers to pull, dispatch,
and re-hang pouches so that clerks can continuously sort parcels without stopping to
pull full pouches. There was no sense of urgency in the pouching operation and there
was a lack of supervision during our observations. See Illustration 13.




                                                      20
Efficiency of the Los Angeles, CA                                                                NO-AR-12-009
 International Service Center



                               Illustration 13. Military Pouch Racks




        Source: OIG; June 5, 2012; 11:54 a.m. Military parcel pouch racks. There are more than
        500 separations for military mail.

    Machineable military letters and flats available on Tour 2 are sorted manually.
    Management at the Los Angeles ISC should maximize the use of automated and
    mechanized equipment by processing all machineable letters and flats on the
    DIOSS and UFSM 1000, respectively, on Tour 1. The Tour 2 manual operation could
    be eliminated, thereby reducing workhours (see Illustration 14).




                                                       21
Efficiency of the Los Angeles, CA                                                          NO-AR-12-009
 International Service Center



                              Illustration 14. Military Manual Cases




           Source: OIG; June 9, 2012; 11:37 a.m. A clerk working machineable mail into a
           manual distribution case. The clerk only picked up a few mailpieces at a time
           time rather than a handful.




                                                      22
Efficiency of the Los Angeles, CA                                                            NO-AR-12-009
 International Service Center



                                     Appendix C: Monetary Impacts


              Recommendation                    Impact Category                        Amount
                    1                    Funds Put to Better Use18                    $4,318,829

Summary of Calculations

       We based cost savings calculation on the reduction of 63,170 workhours over a
        10-year period multiplied by the escalated labor rate discounted over a 10-year
        period. We then calculated the average annual discounted savings over a 2-year
        period. Annual cost savings would be $2,159,414.

       We calculated the net present value using the discount rate of 2.6 percent.

       We based labor rate on the Los Angeles ISC Labor Utilization Reporting System
        salary and benefits rate for total mail processing.

       The yearly escalation factor is 1.8 percent, based on the Postal Service’s Decision
        Analysis Factors, effective November 2011.




18
     Funds that could be used more efficiently by implementing recommended actions.




                                                         23
Efficiency of the Los Angeles, CA                               NO-AR-12-009
 International Service Center


                            Appendix D: Management’s Comments




                                           24
Efficiency of the Los Angeles, CA        NO-AR-12-009
 International Service Center




                                    25
